        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
Department of Energy's Management
of Surplus Nuclear Materials




OAS-L-13-04                          January 2013
                                  Department of Energy
                                  Washington, DC 20585

                                        January 11, 2013

MEMORANDUM FOR THE DIRECTOR
                   DIRECTOR, OFFICE OF NUCLEAR MATERIAL
               INTEGRATION
               INTEGRATION,, NATIONAL NUCLEAR SECURITY
               ADMINISTRATION


FROM:                    Daniel M. Weeber
                         Assistant Inspector General for
                            Audits and Administration
                          Office of Inspector General

SUBJECT:                 INFORMATION
                         INFORMATION: Audit Report on "The Department of Energy's
                                                                         Energy
                         Management of Surplus Nuclear Materials
                                                       Materials"

BACKGROUND
A primary mission of the Department of Energy and its predecessor organizations has been to
design, build and test the Nation''ss nuclear weapons. To accomplish this mission, much of the
Department's complex was devoted to the production and fabrication of nnuclear
                                                                          uclear weapons
components. With ith the end of the CCold War in the early 1990s, many such operations
                                                                             perations were
suspended or shutdown. Because these shutdowns were initially considered temporary, the
Department did not make long term plans for storage or permanent disposition of the nuclear
material, including material that became surplus to the Department'ss mission needs.
                                                                              needs

In 2005, the Department chartered the Nuclear Materials Disposition and Consolidation
Coordination Committee (Committee
                             Committee) to facilitate integration of individual program efforts to
disposition nuclear materials. The Committee was tasked with identifying opportunities for
resource sharing and reducing the duplication of effort at multiple sites in areas such as the
storage and surveillance of nuclear materials. Prior to that time,, nuclear material disposition
projects at various sites across the complex were independently managed by program offices.
                                                                                         offices
The Committee recommended that an office be established within the Department's
                                                                          Department National
Nuclear Security Administration (NNSA) to guide and oversee the integration of the various
programs' nuclear material
                      aterial management activities. Accordingly, NNSA established the Office of
Nuclear Materials Integration (ONMI) to formalize and combine functions previously served by
temporary entities such as the Committee that preceded it. Specifically, ONMI develops
                                                                                    d
strategic plans and policies related to the life-cycle management of nuclear materials and
coordinatess activities among various program offices.

Due to the importance of nuclear material management integration and increased efforts to
consolidate and dispose of surplus materials, we initiated this audit to determine whether the
Department had effectively managed the disposition of surplus nuclear materials.
CONCLUSIONS AND OBSERVATIONS

We determined that the Department made significant progress toward the disposition of surplus
nuclear materials. Specifically, the Department:

   •   Developed a life-cycle nuclear materials management policy, implemented strategic plans
       for consolidation and disposition of nuclear materials, and refined its nuclear materials
       management organization; and,

   •   Consolidated highly enriched uranium and plutonium materials.

The Department made significant progress; yet, despite the specific requirement to do so, we
noted that ONMI had formally proposed and gained program and field element approval of only
one Lead Materials Management Organization (LMMO) to integrate and coordinate the
management of specific nuclear materials. In fact, some nuclear materials were being managed
by de facto or provisional LMMOs. Additionally, the Department had not designated certain
nuclear materials as National Assets to enable retention and continued availability. National
Assets are nuclear materials that have no current programmatic use but have been judged as
unique or difficult to reproduce. As such, those materials would be set aside because of a
significant possibility that the materials will be required for future programmatic use. Unless
these materials are treated as National Assets, the materials are at risk of being processed as
waste for permanent disposal.

                            Surplus Nuclear Materials Management

To strengthen nuclear materials management, in August 2009, the Department revised
Department Order 410.2, Management of Nuclear Materials, to promote life-cycle management
over nuclear materials and integrate program office activities. The revisions formalized
requirements for five categories of management activities and assigned Headquarters program
and field element responsibilities for implementing them. These categories consisted of (1)
material forecast and allotment reporting; (2) nuclear materials management plans; (3) nuclear
material inventory assessments; (4) inventory management; and, (5) a national strategic plan for
management of the Department's nuclear materials. Further, in early 2012, the Department
issued guidance documents for both the Nuclear Material Allotment Forecast and Nuclear
Material Management Plan. Also, as of October 1, 2012, ONMI was updating the draft National
Strategic Plan for Nuclear Materials: A New Era (Strategic Plan) to reflect comments from the
Office of Management and Budget.

The Department also revised the Nuclear Materials Inventory Assessment process to, among
other things, implement life-cycle management of nuclear materials across the complex. ONMI
annually issues detailed guidance requiring Department field elements to submit data
categorizing all nuclear materials as having a "defined use" or "no defined use" based on
programmatic requirements and direction from Department Headquarters organizations. ONMI
annually updates the data during the inventory assessment process and makes it available to all
program office nuclear material managers for planning and evaluation. In addition, according to
officials, in 2011, the Department transferred responsibility for managing and operating the

                                               2
Nuclear Materials Management and Safeguards System, which contains the overall nuclear
materials inventory database, from the Office of Health, Safety and Security to ONMI to enhance
communication and integration.

Finally, the Department implemented plans for consolidating or disposing of surplus nuclear
materials. Under these plans, the Department made substantial progress with the consolidation
and disposition of significant amounts of Category I and II quantities of highly enriched uranium
and weapons-usable plutonium. For example, the Department consolidated the highly enriched
uranium inventory at the Y-12 National Security Complex and the Savannah River Site
(Savannah River). Further, most surplus non-pit weapons-usable plutonium at the Hanford Site
was relocated to Savannah River. Also, inventories of special nuclear materials requiring the
highest level of security have been removed from Sandia National Laboratories and Lawrence
Livermore National Laboratory.

                           Lead Materials Management Organizations

Despite improvements to the surplus nuclear materials management process, the Department had
only designated one LMMO to integrate and coordinate the management of nuclear materials.
Departmental Order 410.2 requires ONMI to propose a Department Headquarters organization or
field element as LMMO, subject to the organization or field element's approval, for specific
nuclear materials, as warranted. Based on discussions with ONMI officials and our review of
Department documents, LMMOs were planned to function as technical points of contact
complex-wide for material specific issues and were intended to minimize the impediments
associated with integrating program office operations. Although ONMI officials planned to
propose LMMOs for all accountable nuclear materials and were in discussions with the program
offices to assign LMMOs, none had been formally designated prior to July 2012, nearly 3 years
after revising Department Order 410.2. ONMI and program officials stated this was due in part
to concerns expressed by program offices regarding LMMO responsibilities. According to
ONMI, program offices believed that establishment of LMMOs may obscure responsibilities for
disposition of materials and potentially interfere with management's authority to administer these
programs.

We noted, however, that organizations have performed as de facto LMMOs for some nuclear
materials. For example, the Department's Y-12 facility has performed this function for enriched
uranium materials and Savannah River and Los Alamos National Laboratory have cooperated as
provisional LMMOs for surplus plutonium and defense programmatic plutonium materials,
respectively. According to officials, formal designation of LMMOs will enhance ONMI's ability
to facilitate effective integration and efficient coordination of nuclear materials disposition. On
July 20, 2012, the Director of ONMI issued the charter establishing Oak Ridge National
Laboratory as LMMO for heavy isotope materials. Prior to this date, however, neither de facto
nor official LMMOs had been assigned for certain surplus nuclear reactor components that
contain heavy isotope materials identified by the Department to have value for future
programmatic use. For example, the existing inventory of plutonium-242/244, americium-243
and curium-244/246/248 are valuable as feedstock for producing new isotopes. The
Department's strategic plan, dated April 2011, identified these materials as rare and economically


                                                3
irreplaceable. The strategic plan also acknowledged the need for Department decisions
regarding the preservation of these materials before the opportunity is lost, as the supply of these
unique materials is dwindling with decay.

                                     National Asset Materials

We also noted the Department had not designated and did not manage any nuclear materials as
National Assets. The Department's Strategic Plan concluded that specified surplus nuclear
reactor components contain rare isotopes that are, for all practical purposes, irreplaceable and
vulnerable to be processed as waste for permanent disposal. Department Order 410.2 requires
ONMI to identify and recommend designation of National Asset materials to enable retention
and continued availability of items that have no immediate programmatic use and no Department
owner, but may have future use for research, commercial applications, environmental safeguards
or nuclear forensics and are unique or costly to replace. We found that ONMI is in the process
of identifying materials for National Asset designation; however, the Department had not
designated any nuclear materials as National Assets or provided the funding necessary to recover
these valuable isotopes.

We recognize that there are continuing issues related to programmatic authority and funding
restrictions that prohibit program offices from taking possession and recovering these types of
nuclear materials. For example, as we noted in our report on Meeting Medical and Research
Needs for Isotopes Derived from Uranium-233 (DOE/IG-0795, May 2008), surplus inventories
of uranium-233 are controlled and managed by the Office of Environmental Management (EM),
whose mission is to dispose of unwanted materials. No programs stepped forward to take control
of the materials because EM required the adopting program to assume responsibility for
managing the materials and paying for the disposition costs. To retain these materials, programs
must have current projects with current funding sources – a circumstance that does not currently
exist. At the time of our review, the Department had not sought a Congressionally-approved
programmatic mission and appropriated funds to preserve and retain materials for future
Department or national use. Per ONMI's Director, the Department is in the process of
determining which materials and what amounts to consider for National Asset designation.
Decisions regarding future life-cycle plans for these materials are crucial to efficiently and
effectively manage these national resources.

                                           Path Forward

The Department has made significant progress in managing the disposition of surplus nuclear
materials. To advance these efforts, we suggest the Department:

    •   Finalize its efforts to formally designate the LMMOs to facilitate the integration and
        coordination of nuclear materials disposition; and,

    •   Complete its determination of the types and quantity of surplus nuclear materials
        containing valuable isotopes that need to be preserved for programmatic and national
        needs before the opportunity is lost.


                                                 4
We coordinated the results of our review with management officials. Because formal
recommendations are not being made, a formal response is not required. We appreciate the
cooperation of your staff and the various field elements that provided information or assistance
during the audit.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Under Secretary for Nuclear Security
    Associate Administrator for Defense Nuclear Security, NA-70
    Director, Office of Business Operations, NA-MB-20




                                                5
                                                                                     Attachment


                       OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of the audit was to determine whether the Department of Energy (Department) had
effectively managed the disposition of surplus nuclear materials.

SCOPE

This audit was performed from May 26, 2011, to October 1, 2012, at Department Headquarters
in Germantown, Maryland and the Savannah River Site (Savannah River) in Aiken, South
Carolina. The scope of the audit primarily covered the National Nuclear Security
Administration's (NNSA) management and planning of the disposition of surplus nuclear
materials.

METHODOLOGY

To accomplish the objective of this audit, we:

    •   Reviewed applicable laws, regulations and guidance;

    •   Reviewed prior audits and assessments;

    •   Assessed the Department's organizational structure and strategic plan for managing
        surplus nuclear materials;

    •   Interviewed key personnel at NNSA's Office of Nuclear Materials Integration and
        Savannah River; and

    •   Reviewed the 2010 summary of the Nuclear Materials Inventory Assessment report.

We conducted this performance audit in accordance with generally accepted government audit
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Accordingly, the audit included tests of
controls and compliance with laws and regulations to the extent necessary to satisfy the
objective. In particular, we assessed the Department's implementation of the Government
Performance and Results Act Modernization Act of 2010 and concluded that the Department had
established performance measures for managing the disposition of surplus nuclear materials.
Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. We did not rely on computer-
processed data to achieve the objective of our audit.

Management waived an exit conference.

                                                 6
                                                                    IG Report No. OAS-L-13-04


                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

    1. What additional background information about the selection, scheduling, scope, or
       procedures of the audit or inspection would have been helpful to the reader in
       understanding this report?

    2. What additional information related to findings and recommendations could have been
       included in the report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's overall
       message more clearly to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report that would have been helpful?

    5. Please include your name and telephone number so that we may contact you should we
       have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
